 AUDIT OF SECURITY AND CONTROLS
OVER THE NATIONAL DRIVER REGISTER

   National Highway Traffic Safety Administration

           Report Number: FI–2008–003
           Date Issued: October 29, 2007
           U.S. Department of
                                                                    Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: Audit of Security and Controls Over                                        Date:    October 29, 2007
           the National Driver Register, NHTSA
           Report Number: FI–2008–003

  From:    Rebecca C. Leng                                                                 Reply to
                                                                                           Attn. of:   JA–20
           Assistant Inspector General for Financial and
            Information Technology Audits
    To:    National Highway Traffic Safety Administrator


           This report presents the results of our audit of the National Driver Register (NDR)
           Information System administered by the National Highway Traffic Safety
           Administration (NHTSA) in the Department of Transportation (DOT).1 This
           central register allows state department of motor vehicles (DMV) officials to
           exchange information on problem drivers identified in each state, such as those
           convicted of driving under the influence of alcohol.2

           Annually, Congress appropriates about $4 million to support NDR operations.
           Part of this funding is used to cover the cost associated with housing the
           mainframe NDR database at a contractor site. State DMVs remotely access NDR
           through a network managed by the American Association of Motor Vehicle
           Administrators (AAMVA).3 Through the AAMVA network, state DMVs can
           electronically exchange information with NDR and other states.

           State DMV officials report problem drivers to NDR using personally identifiable
           information, such as Social Security number and the driver’s name, date of birth,
           gender, height, weight, and eye color. When state officials process a driver’s
           license application, they are required to check the NDR database to determine if
           the applicant has been identified as a problem driver in another state. If a match is

           1
               Congress passed the Federal Highway Safety Act of 1960 (P.L. 86-660) to establish NDR, and the National Driver
               Register Act of 1982 (P.L. 97-364) to convert NDR to an electronic system. The National Driver Register Act also
               transferred the NDR responsibility from the Department of Commerce to DOT.
           2
               A problem driver is defined as being an individual whose motor vehicle operator’s license has been denied, canceled,
               revoked, or suspended for motor vehicle-related traffic offenses.
           3
               The same AAMVA network is also used to support the Commercial Driver’s License Information System (CDLIS),
               overseen by DOT’s Federal Motor Carrier Safety Administration.
                                                                                                               2


found in NDR, state officials are directed to another state DMV system for details
on the traffic conviction. In 2006, more than 70 million inquiries were made for
drivers’ license applicants, 9 million of which were found to be problem drivers in
NDR.4

The requirement to check applicants against NDR was intended to prevent
problem drivers from “license shopping”—going to a different state to get a new
driver’s license when their current licenses are suspended or revoked. Keeping
problem drivers off the road is critical to the Department’s goal of reducing
highway fatalities and injuries. For example, of the 43,000 deaths annually on
U.S. roads, 17,000 are caused by alcohol-related incidents.

Other users of NDR data include Government agencies and private companies.
For example, the Federal Aviation Administration, Federal Railroad
Administration, and U.S. Coast Guard use NDR information to determine whether
individuals are fit to occupy safety-sensitive positions, such as flying passenger
aircraft or operating passenger trains or ships. Private companies in the
transportation industry, such as those operating commercial motor vehicles
carrying hazardous material, also request information from NDR on job
applicants. In 2006, about 800,000 inquires were made by Government agencies
and private companies.

Our objectives were to determine whether (1) drivers’ personally identifiable
information was properly secured from unauthorized access or unapproved use,
(2) problem drivers were recorded in NDR in a timely manner, and (3) an
adequate contingency plan existed to ensure continued services to state DMVs in
the event of a disaster. This performance audit was conducted in accordance with
Generally Accepted Government Auditing Standards prescribed by the
Comptroller General of the United States and included such tests as we considered
necessary to detect fraud, waste, or abuse. Details of our scope and methodology
are in Exhibit A.

RESULTS IN BRIEF
Drivers’ personally identifiable information was properly secured in the NDR
mainframe database; however, when transmitted or stored outside the mainframe
computer, it was exposed to potential unauthorized access or unapproved use. For
example, sensitive information is not encrypted when transmitted between states
and NDR on the AAMVA network. In addition, problem drivers were not
recorded in NDR in a timely manner––millions were not recorded until at least
1 year after conviction—and incomplete or inaccurate information on Social

4
    There are more than 200 million licensed drivers in the United States, with 42 million problem drivers’ records in
    NDR.
                                                                                3


Security numbers and drivers’ physical attributes such as height, weight, and eye
color were found in NDR. Finally, the NDR contingency plan testing was too
limited to ensure adequate service to state DMVs in case of an emergency.

These issues are summarized below and detailed in the finding section, beginning
on page 6.

Personally identifiable information was exposed to potential unauthorized
access or unapproved use. We found security weaknesses in network
transmission of sensitive information, background checks on personnel given
access to NDR, and record storage and mission-critical computers in the NHTSA
office.

Network Transmission. Forty-two (42) million records were properly secured in
the NDR mainframe database. However, they were not encrypted when
transmitted between state DMVs and NDR. Thus, they were subject to potential
unauthorized access during network transmission. Federal minimum security
standards require the use of sophisticated encryption protection when transmitting
sensitive information such as NDR records, but NHTSA does not control network
transmissions between state DMVs and NDR. Instead, AAMVA is responsible for
managing the network. In response to our concerns regarding the transmission of
sensitive information over the network, NHTSA is developing an agreement with
AAMVA to secure the sensitive data it transmits on the network.

Background Checks on Key Personnel. DOT policies require that Federal
employees and contractor personnel receive the proper level of background checks
before being given access to sensitive DOT systems and information. We found
serious gaps in this control area. First, NHTSA employees responsible for
maintaining NDR system software did not receive the higher level background
checks comparable to their sensitive work. Second, AAMVA personnel working
on the NDR Help Desk did not receive any background checks. Finally, NHTSA
does not know whether contractor employees who control NDR mainframe data
processing received proper background checks as specified in the contract.
NHTSA needs to take immediate action to correct this weakness.

Record Storage and Mission-Critical Computers Used in the NHTSA Office. File
cabinets used to store NDR-related records were unlocked, unattended, and
exposed to unauthorized access. Computers that NHTSA staff used to access the
NDR database were connected to the DOT shared network without protection. As
a result, other computers on the shared network, if not properly secured, could
become an entry point to gain unauthorized access to these mission-critical
computers and, in turn, pose a threat to the confidentiality, integrity and
availability of NDR data. NHTSA has agreed to enhance security protection in its
office.
                                                                                                                       4


Problem drivers were not recorded in NDR in a timely manner. Deficiencies
were also found in the removal of records from NDR, recording of Social Security
numbers and drivers’ physical attributes, and the planned NDR modernization
effort. Specifically,

Timeliness of Recording Problem Driver Records. Based on our sample test, we
estimate that state DMVs did not record 6 million problem driver records in NDR
until at least 1 year after conviction. This delayed reporting could significantly
impair other states’ ability to keep problem drivers from getting a driver’s license.
We could not determine the timeliness of 35 percent of the sampled records due to
a system design deficiency that allowed states to override the recorded entry dates
in NDR. NHTSA needs to correct this system deficiency and work with state
officials to improve the timeliness of recording problem drivers in NDR.

Removing Problem Drivers’ Records From NDR. When traffic convictions
expire, the problem driver’s records are removed from NDR through interfaces
with state DMV systems. However, NHTSA staff can also remove records from
NDR manually. During 2006, NHTSA manually deleted about 1,000 records
based on state officials’ requests. We sampled 157 requests and found 11 problem
driver records that were wrongfully removed from NDR while these drivers’
convictions had not expired in state DMV systems. In response to our finding,
state officials restored these records in NDR. Although the number of records
improperly deleted is relatively small, it could have a significant impact on public
safety because problem drivers could obtain valid licenses or apply for safety-
sensitive positions when their records were removed from NDR. NHTSA must
strengthen controls over manual removal of records from NDR.5

Recording Personally Identifiable Information in NDR. When searching NDR to
determine whether driver’s license applicants have been identified as problem
drivers, state officials enter the drivers’ names and dates of birth. This can result
in multiple matches in the NDR database, thus requiring further identification.
To identify the driver, state officials have to use other information recorded in
NDR, such as height, weight, eye color, or the applicant’s Social Security number
or driver’s license number.6 We found, however, that close to 18 million NDR
records did not have complete information on height, weight, and eye color. We
also found over 161,000 duplicate Social Security numbers, each one used by
more than one driver within the same state (see details in Exhibit B). We referred

5
    We verified that these 11 individuals did not get new personal driver’s licenses from their NDR state of record or
    commercial driver’s licenses from any state during the period when their records were removed from NDR.
    However, we could not determine whether any prospective employers had inquired about these individuals during
    this period.
6
    More than half of the records in NDR contain Social Security numbers. Providing Social Security numbers is not
    required for driver’s license applications under the current legislation, but will become mandatory under the Real ID
    Act, effective in May 2008.
                                                                                 5


information regarding these duplicate Social Security numbers to the Social
Security Administration. The lack of complete and accurate information on
drivers’ Social Security numbers and/or physical attributes made it more difficult
for states’ officials to identify problem drivers. NHTSA needs to strengthen
system edit checks on the information submitted by state officials.

Planning NDR Modernization. The NDR system design has stayed intact since its
initial installation in the early 1980s. In 2006, NHTSA began to modernize NDR
by converting flat files to a relational database and replacing programs with a
modern-day programming language. Although this is definitely a step in the right
direction, the planned modernization effort was too limited. For example, NHTSA
did not evaluate the need to include encryption or enhanced data query capabilities
in the planned upgrade, even though technologies for securing and processing
information requests have changed significantly since the early 1980s. NHTSA
should work with state DMVs to identify upgrade needs for modernization
evaluation.

NDR contingency plan testing was too limited to ensure adequate service to
state DMVs in case of emergency. Contingency planning is critical to
determining whether an organization can continue to perform its mission in the
event of disaster. To its credit, in cooperation with AAMVA and state DMVs,
NHTSA has conducted quarterly testing of the NDR contingency plan. The
testing included recovering NDR system operations at an alternate site and testing
the network connection between the recovery site and AAMVAnet. However,
NHTSA has not tested whether the recovery system could process a similar
amount of transactions as the primary system without slowing down state DMV
operations. In addition, NDR’s backup tapes were stored only 15 miles away from
the primary processing site. In the event of a regional disaster, NHTSA could lose
both the data processing center and its off-site storage location, thereby
compromising NDR’s operations. NHTSA should conduct capacity testing on the
recovery system and select a more distant site at which to store NDR backup
tapes.

We are making a series of recommendations to help NHTSA strengthen protection
of sensitive NDR data and improve the efficiency of the NDR system. A complete
list of our recommendations begins on page 15 of this report. In summary, we are
recommending that NHTSA:

• Establish an interconnection agreement and memorandum of understanding
  with AAMVA that specifies the responsibilities of both organizations for the
  protection of NDR; encrypt data transmissions between NHTSA, the states,
  and NDR contractor sites; enhance background checks on personnel with
  access to NDR; and better protect NHTSA facilities used to manage NDR
  operations.
                                                                               6


• Work with states to ensure that data on problem drivers are entered into NDR
  in a timely manner and with accurate personal information about the drivers,
  strengthen controls over manual removal of problem driver records from NDR,
  and evaluate other upgrade needs for the modernization effort.

• Test the transaction processing capacity of the recovery system and store back-
  up tapes at a more remote site.

We provided a draft of this report to NHTSA for comment on September 5, 2007,
and on October 10th we received the Agency’s response. NHTSA concurred or
concurred in part with our recommendations and stated that many of the corrective
actions needed are already in the process of being, or have already been,
completed. The response further stated that comprehensive corrective action plans
have already been developed for the remaining items. NHTSA’s response can be
found in its entirety in the Appendix.


FINDINGS

Personally Identifiable Information Was Exposed to Potential
Unauthorized Access or Unapproved Use

Sensitive Information Not Encrypted During Network Transmission
The NDR system resides on a mainframe computer located at a contractor’s site,
where 42 million driver records were properly secured. However, sensitive NDR
data are not properly secured when transmitted to state DMVs via a network
managed by AAMVA or to NHTSA on a dedicated line (see figure 1).
                                                                                                              7


    Figure 1. Overview of NDR System Network Connections
                                                          NDR System Connections


                                                                     INTERNET




                                                                                              FAA*
                                                  AAMVA



                                                              CONTRACTOR
                                                                                      DOT
                                                                                                      FRA**

                                     AAMVA -NET
         States                                                   National
                                                                   Driver
                                                                  Register                  Other
                                                                                            OAs ***


                                                                                   NHTSA
         * Federal Aviation Administration.
        ** Federal Railroad Administration.
       *** Operating Administrations.


      Source: DOT OIG analysis of NDR network

In accordance with the Federal Information Security Management Act of 2002
(FISMA) and the National Institute of Standards and Technology (NIST)
Publication 800-53, “Recommended Security Controls for Federal Information
Systems,” systems that contain personally identifiable information should have
their data encrypted when transmitted. Further, the Privacy Act of 1974 requires
that personally identifiable information collected by the Federal Government be
adequately secured to protect an individual’s privacy from unauthorized access.

DOT Order H 10-202, “Departmental Guide to Network Security,” requires that
different organizations connecting to a DOT system develop an interconnection
security agreement (ISA) and a memorandum of understanding (MOU). The ISA
should document the requirements for connecting the systems and describe the
security controls that will be used to protect the systems and data, along with
drawings of the interconnections. The MOU should define the purpose of the
interconnection, identify authorities, and specify the responsibilities of both
organizations.

The states have contracted with AAMVA to provide network services to transmit
and receive data to and from the NDR database. These network transmissions
were not encrypted and personally identifiable information was transmitted in
clear text. If intercepted during transmission, drivers’ personally identifiable
information could potentially be subjected to unauthorized access and unapproved
use. This occurred because NHTSA did not follow departmental guidance to have
an ISA and MOU with AAMVA to address security of the network connected to
NDR. NHTSA should work with AAMVA to ensure that all NDR data being
                                                                               8


transmitted at the state level are encrypted and establish an ISA and MOU with
AAMVA to ensure the security of NDR data.

NHTSA also uses a dedicated line to access the NDR mainframe database;
however, the data transmitted were not encrypted. NHTSA should provide data
encryption for the information traversing this line.


Background Checks on Key Personnel Not Adequate
DOT Order 1630.2b, “Department of Transportation Personnel Security Manual,”
requires that DOT employees receive different levels of background checks in
accordance with the positions they occupy. For example, employees occupying
high-risk positions, especially those with significant impact on mission-critical
systems, are required to receive a higher level background check (called
Background Investigation). For moderate-risk positions, a lower level background
check (called National Agency Check and Inquiry) is required. DOT policy also
requires that contractor employees receive the same types of background checks as
DOT employees who perform comparable duties.

We identified inadequate background checks for both NHTSA employees and
contractor personnel.

• Background Checks of NHTSA Employees. Of the 14 people responsible for
  monitoring and maintaining NDR system operations, 10 are NHTSA
  employees and 4 are contractors, all except 2 NHTSA employees received
  proper background checks. These two employees had the ability to make
  changes to NDR software, such as the criteria used to identify problem drivers,
  but they received only lower level background checks because NHTSA
  improperly assessed their positions as having a moderate risk. According to
  DOT policies, positions with a significant impact on mission-critical systems
  should be rated as having a high risk unless the work is subject to review by
  another position that has received the higher level background check. The two
  NHTSA employees’ work was not subject to such a review.

• Background Checks of Help Desk Personnel. Eight AAMVA personnel were
  responsible for operating the NDR Help Desk on behalf of NHTSA. However,
  none of the individuals received any background checks before potentially
  handling personally identifiable information as part of their duties. This
  happened because the cooperative agreement between NHTSA and AAMVA
  did not require background checks.
                                                                                9


• Background Checks of NDR Contractor Personnel. The NDR mainframe
  database is housed at a contractor site. In the NDR contract, NHTSA required
  the contractor to order background checks on personnel given access to NDR
  in accordance with DOT policy. However, NHTSA did not request that the
  contractor identify the individuals given access to NDR data or programs, nor
  did it specify the types of background checks required. During our visit at the
  contractor’s site, we identified several contractor personnel with access to
  NDR and requested evidence of their completed background checks. Although
  the contractor complied with our request, we could not determine whether the
  background checks were adequate to meet DOT policy requirements because
  the contractor was unwilling to provide details on the type or level of
  background checks completed. As a result, there was no assurance that proper
  background checks had been performed on contractor personnel, who control
  NDR system operations, in accordance with NHTSA contract requirements.

Without proper levels of background checks, NHTSA could be missing critical
information on personnel placed in key positions to ensure the integrity and
security of computer operations. While background checks do not guarantee a
person’s loyalty or trustworthiness, they do provide valuable information with
which to help management determine whether an employee should be given
access to DOT systems. To mitigate the situation, NHTSA should reevaluate the
position risk and associated background check requirement for the two NHTSA
employees and modify the cooperative agreement with AAMVA to require
AAMVA personnel providing Help Desk services to have the appropriate type of
background check. In addition, it should require that the NDR data processing
contractor identify individuals given access to NDR to ensure that they receive
proper background checks in compliance with DOT policy.

Sensitive Records and Computers Used to Access NDR Not Properly
Secured
According to NIST 800-53, only authorized users should have access to Agency
information in printed or digital form. Additionally, the organization (NHTSA)
should physically control and securely store information media, both physical and
digital, based on the security category of information stored on the media.

At the NHTSA Headquarters NDR office, file cabinets containing personally
identifiable information were unlocked—with the key in the lock during business
hours. This security weakness could allow unauthorized personnel to view and
obtain an individual’s personally identifiable information without being noticed.
According to NDR management, at least one of its personnel was physically
located in the office at all times, making it unnecessary to secure doors and file
cabinets during working hours. However, during two separate visits to the NDR
                                                                                                            10


office, we found it unattended. NHTSA has agreed to enhance security protection
in its office by keeping its NDR file cabinets locked.

Finally, we evaluated the security protection of 15 computers that NHTSA
personnel use to access the NDR mainframe database. These computers reside on
the network shared by thousands of DOT personnel. We found vulnerabilities in
this shared network and there was no additional security protection, such as a
firewall, to protect these 15 computers. Consequently, other systems/computers
on the shared network could become an entry point for gaining unauthorized
access to these mission-critical computers and, in turn, the NDR mainframe
database. NHTSA should better protect the computers used to access the NDR
mainframe database.

Problem-Driver Records Were Not Entered into NDR in a Timely
Manner, Were Improperly Deleted from NDR, and Contained
Incomplete and/or Inaccurate Personal Information

Problem-Driver Records Not Entered Into NDR in a Timely Manner
According to NDR, Title 49, after becoming an NDR participating state, the chief
driver’s licensing official of that state is responsible for submitting an individual’s
profile for entry into the NDR database no more than 31 days after the state DMV
receives the driver’s record of conviction. However, state DMVs maintain the
driver’s conviction date, not the date the DMV received the conviction record.
According to state officials we interviewed, DMVs normally receive a driver’s
record about 30 days after a driver’s conviction. Thus, we used the driver’s
conviction date plus 60 days to test the timeliness of the records entered into NDR
from state DMVs.

We obtained a copy of the NDR database as of November 2005 and from that
database selected a statistically valid sample of 273 records of the nine states
visited. As shown in Table 1, only 100 NDR records from our sample were
created within 60 days of the conviction date. In other cases, it took months or
years before an NDR record was created for a driving violation. Based on the
sample results, we project that records for about 6 million problem drivers were
not entered into NDR until at least 1 year after conviction.7 In addition, the
timeliness of 95 sample records could not be determined because the original date
of record entry was not retained in NDR––a system design deficiency.



7
    We estimate with a 90 percent confidence level that the percentage of records recorded at least 1 year after
    conviction is 14 percent, or about 6 million of the 42 million overall records, with a margin of error of
    +/- 8 percentage points.
                                                                                 11


      Table 1. Timeliness Analysis of State-Sampled Records
                        Entered into NDR
                      Number                                   Timeliness
                                  0-60      61-365    > 365
             State      of                                     Cannot Be
                                  Days       Days     Days
                      Records                                  Determined
              1         63          48         3        1           11
              2           5          3         2        0           0
              3          46         22         6       13           5
              4          22          5         8        0           9
              5          23          5         2        8           8
              6          35          7        11        4          13
              7          39          6         3       13          17
              8          32          4         3        1          24
              9           8          0         0        0           8
             Total      273        100        38       40          95
                                    36%       14%     15%          35%


According to state officials we interviewed, they did not enter records of problem
drivers into NDR in a timely manner partially because they were not aware of the
NDR legislative requirement to send driver profile records to NDR within 31 days
of the day state DMVs received them. In addition, an NDR system design
deficiency caused the date of driver records’ original entry to be replaced by the
date that a system update occurred.

The impact of the delay in creating an NDR driver’s record increases the potential
that problem drivers will seek a valid license in another state before NDR is
updated. To ensure the timeliness of its data, NHTSA needs to make certain that
states are aware of NDR requirements for submitting the profile of convicted
offenders to NDR within 31 days. Further, NDR needs to correct the system
deficiency that overwrites the original record entry date so that the original dates
of entry are retained.

Records of Problem Drivers Improperly Removed From NDR
Problem-driver records are deleted from NDR through system interfaces with state
DMV systems when convictions expire. In addition, NHTSA personnel can
manually delete records from NDR. NHTSA performed about 1,000 of these
manual deletions in 2006 based on requests it received from the states. These
manual deletions are done to assist the states in immediately clearing a record
when a driver’s license applicant has just corrected his/her status, thereby
becoming eligible for a license. NHTSA requires state DMV officials to submit
written requests for manual driver record deletions from NDR.
                                                                                                                  12


We selected two periods for review—January/February 2006 and June/July 2006.
NHTSA personnel manually deleted 124 records and 33 records, respectively,
during these two periods. We reviewed the written requests sent to NHTSA and
found that state officials did not list justifications for the requests but used pre-
authorized forms to ask NHTSA to remove records from NDR. We contacted the
states and found that 11 of the 157 records we reviewed were wrongfully removed
while their convictions had not expired in state DMV systems. In response to our
finding, the states placed the 11 incorrectly deleted records back into NDR. We
verified that none of the drivers in question received new licenses during the
period that their records were incorrectly removed from NDR.

This situation existed because NHTSA did not adequately verify information on
the states’ request forms with designated state officials before deleting records
from NDR. Additionally, they did not require state officials to provide written
justification when requesting removal of a record. According to NHTSA officials,
they normally verify requests with a follow-up telephone call to state officials
before the record is deleted from NDR. However, they may not have done so for
the 11 records that were incorrectly removed from NDR.

Finally, there was a lack of accountability—state officials could not identify the
individuals who actually requested the removal of the 11 records in question. Two
states, which were responsible for 9 of 11 incorrectly removed records, used pre-
approved forms to request deletion of records of problem drivers from NDR.
Thus, any DMV employee in these two states could ask NHTSA to remove a
driver’s record from NDR by using pre-approved request forms. To remediate this
weakness, NHTSA should strengthen controls over the manual deletion process.

Incomplete or Inaccurate Personally Identifiable Information Impeding
Identification of Problem Drivers
The National Driver Register, Title 49, requires that states send to NDR an
individual’s legal name, date of birth, sex, and Social Security number if states use
it for driver’s record or motor vehicle licensing purposes. Additionally, it requires
the name of the state providing the information. The law also states that at the
discretion of the Secretary of Transportation, a driver’s physical attributes (height,
weight, eye color) can be required as part of the NDR record to assist state DMVs
in identifying the correct individual.

State officials search the NDR database for specific individuals based on last
name, first initial, and date of birth.8 Given the high number of potential matches,
state officials must rely on other information recorded in NDR to identify drivers,

8
    The NDR name search algorithm uses both driver name and date of birth as the primary search factors and sex as the
    secondary factor in generating potential matches.
                                                                                                                     13


such as physical attributes or Social Security numbers. However, state DMV
officials did not consistently or accurately record such identifiable information
because the law does not require the information. For example, we found that
drivers’ physical attributes were missing from about 18 million of 42 million
records in the NDR database (see details in Exhibit B). This made it more difficult
for state officials to identify problem drivers. NHTSA should work with the states
to determine which physical attributes are critical to identifying drivers and issue
directives to mandate state submission accordingly.

Social Security numbers were included in about 26 million records (62 percent) in
NDR. However, of that number, we found over 600,000 invalid Social Security
numbers, such as 111-22-3333 and 222-33-4444. We also found over 161,000
duplicate Social Security numbers; that is, numbers that were used by more than
one driver within the same state. This happened because state DMVs did not
begin using the Social Security Online Verification System until recently.
Currently, four states still do not conduct such verification.9

The current law does not mandate that state DMVs verify a Social Security
number before issuing a driver’s license. However, the Real ID Act of 2005
requires that by December 2009, all Social Security numbers used to obtain
driver’s licenses must be verified.10 Until corrected, these invalid and duplicate
Social Security numbers could result in confusion and impede states’ ability to
identify problem drivers under Real ID implementation. We provided information
regarding these duplicate Social Security numbers to NHTSA and the Social
Security Administration. NHTSA should work with state DMVs to correct invalid
or duplicate Social Security numbers and to develop policies requiring the use of
the online verification of Social Security numbers.

Modernization of NDR Too Limited
According to industry research studies, aging information systems are expensive
to maintain and most are eventually retired and replaced. These studies suggest
that because information systems become technically obsolete, they need to be
considered for replacement every 8 to 10 years. NDR, a system that was first
computerized in the early 1980s as a flat file system with COBOL programs and
that uses an in-house-developed search algorithm, last underwent a system
conversion in 1995. In 2005, NHTSA began to modernize NDR by converting the
flat files to a relational database and replacing COBOL programs with a modern-
day programming language.

9
   Online verification of Social Security numbers enables state officials to verify matching Social Security number,
   name, and date of birth of each driver through the Social Security Administration’s database.
10
   The Real ID Act of 2005 establishes national standards for state-issued licenses and non-drivers’ identification cards.
   After May 11, 2008, a Federal agency may not accept, for any official purpose, a driver’s license or identification
   card issued by a state to any person unless the state is meeting the requirements specified in the Real ID Act.
                                                                                   14


Although this is definitely a step in the right direction, the planned modernization
efforts were too limited. For example, NHTSA did not evaluate the need to
upgrade NDR processing for better security protection or enhanced data integrity
even though technologies for transmitting and processing information have
changed significantly since the early 1980s. NHTSA should work with state
DMVs to identify needed upgrades for modernization.

In addition, NHTSA did not consider replacing the in-house-developed search
algorithm with commercial products (search engines). The search algorithm was
developed by DOT personnel in 1982 to enable state officials to search for specific
individuals in large flat files and may not be the best mechanism to search records
in a relational database system. Additionally, maintaining this special search
algorithm will become more expensive when the current programming staff
retires. NHTSA management should evaluate whether any commercial search
engine products will work more effectively with the new relational database
design and improve the accuracy and response time of license applicant searches.

NDR Contingency Plan Not Adequately Tested to Ensure Sufficient
Service to State DMVs in Case of Emergency
According to NIST Special Publication 800-34, “Contingency Planning Guide for
Information Technology Systems,” testing is a critical element of any viable
contingency plan. One area requires testing system performance using alternate
equipment, another specifies that the alternate site location should be in a
geographic area that is unlikely to be negatively affected by the same disaster
event as the organization’s primary site.

To its credit, NHTSA—in cooperation with AAMVA and state DMVs—has
conducted quarterly testing of the NDR contingency plan. The exercise included
recovering NDR system operations at an alternate site and testing the network
connection between the recovery site and AAMVAnet. However, NHTSA has not
tested whether the recovery system could process a similar number of transactions
as the primary system without slowing down state DMV operations. NHTSA
required only that the new telecommunications connection between AAMVAnet
and the alternate NDR site be tested with a limited number of transactions.
NHTSA assumed that the new telecommunications connection would provide the
same level of transmission speed as the regular connection.

States have not fully participated in testing the transaction capacity of the recovery
system using the new telecommunications line between AAMVA and the alternate
data center. Testing would determine whether the states can use the recovery
system to verify problem drivers in a timely manner and whether the new
connection would result in slower processing capacity at the alternate NDR data
                                                                                 15


processing site. Either of these weaknesses could slow states’ processes for
issuing or renewing driver’s licenses. To remediate these weaknesses, NHTSA
should require states’ full participation in testing the transaction processing
capacity of the recovery system.

In addition, the off-site storage facility containing all NDR backup tapes is
approximately 15 miles from and within the same geographic region as the
primary data processing center. NIST guidelines recommend storage of backup
media outside the same geographic region as the primary data center. Because of
their close proximity, both facilities could be vulnerable to loss in the event of a
regional disaster. According to NHTSA, these facilities were established in such
close proximity by the contractor and were outside NHTSA’s purview.

Loss of NDR’s primary processing center and backup facility could seriously
damage DOT’s ability to continue operation of NDR. NHTSA management rated
the system as high in its need to be available to state DMV users, because state
DMVs rely on NDR to keep bad drivers from receiving licenses. Consequently,
NHTSA needs to ensure that a copy of the weekly backup data files from the NDR
data center is stored in a geographic region more distant than the off-site location
it currently uses.



RECOMMENDATIONS
We recommend that the NHTSA Administrator direct the Senior Associate
Administrator for Policy and Operations to:

Enhance security protection of NDR data by:

   1. Establishing an interconnection security agreement and memorandum of
      understanding with AAMVA to document security requirements, identify
      authorities, and specify responsibilities of both organizations, such as the
      encryption of the data and the security assurance required to meet
      Government minimum security standards.

   2. Installing encryption on the dedicated line between NHTSA and the NDR
      contractor site.

   3. Requiring NDR officials to (a) re-evaluate the position risk and associated
      background check requirement for the two NHTSA employees with the
      ability to change NDR software, (b) modify the cooperative agreement to
      require AAMVA personnel providing Help Desk services to have the
      appropriate type of background check, and (c) ensure that NDR mainframe
                                                                                 16


      data center employees’ background checks are sufficient to meet DOT
      policy requirements, as specified in the contract.

   4. Requiring that facilities used to store NDR records are properly secured at
      all times.

   5. Better protecting the NHTSA computers used to access NDR mainframe
      database, such as installing firewall security to separate these mission-
      critical computers from other computers on the network.

Enhance data timeliness and accuracy by:

   6. Working with states to (a) establish a mechanism to ensure that DMVs
      enter problem driver data into NDR within 31 days of receipt of conviction,
      as required by Title 49 and (b) modify the NDR database to ensure that the
      original date that the record of a problem driver was entered into the system
      is retained.

   7. Requiring NDR officials to (a) develop a standard process for states to use
      when requesting the manual removal of problem driver records from NDR,
      including the driver’s legal name, reason for the deletion, and name of the
      authorized state representative making the request and (b) require the NDR
      office to verify the state’s request before removal of the problem driver
      record.

   8. Requiring NDR officials to (a) work with state DMV officials to determine
      which physical attributes should be made mandatory for NDR reporting,
      provide the guidelines to the states in a directive, and establish edit checks
      in NDR to verify that required data fields are complete before accepting a
      record into the system and (b) require that state DMVs correct the invalid
      and duplicate Social Security numbers stored in NDR—a Federal system—
      and to use the online verification of Social Security numbers.

   9. Requiring NDR officials to (a) work with the state DMVs to determine
      what functional upgrades should be included in the NDR modernization
      plan and (b) evaluate whether any commercially available search engine
      will work more effectively with the relational database design and improve
      the accuracy and response time of driver applicant searches.

Enhance NDR’s contingency planning capability by:

 10. Coordinating with state DMVs to test the transaction processing capacity of
     the recovery system at the contractor’s alternate data center.
                                                                               17



  11. Requiring that a copy of the weekly backup data files from the NDR data
      center be stored in a more remote site than the one currently used.


AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE
A draft of this report was provided to NHTSA on September 5, 2007. On
October 10th we received the Agency’s response, which can be found in its entirety
in the Appendix.       NHTSA concurred or concurred in part with our
recommendations, stating that many items are already in the process of being, or
have already been, completed. The response further stated that comprehensive
corrective action plans have already been developed for the completion of the
remaining items.

In general, the corrective actions that NHTSA management has taken and plans to
take adequately address the intent of our recommendations except for
recommendations 8(a), 8(b), and 10. NHTSA management’s responses to our
recommendations are summarized as follows:

Recommendation 1: NHTSA concurred. NHTSA is in the process of finalizing
an interconnection security agreement that will include encryption of NDR data
transmitted on the AAMVAnet, and a memorandum of understanding. The
planned completion date for this item is December 2007.

Recommendation 2: NHTSA concurred. NDR staff and NHTSA Chief
Information Officer (CIO) will work with the Department’s Office of the CIO
(OCIO) to establish encryption on the line between NHTSA and the contractor site
where the NDR mainframe is housed. The planned completion date for this item
is June 2008.

Recommendation 3 (a): NHTSA concurred. NHTSA will upgrade the position
of risk designation of the employees and conduct appropriate back ground
investigations. The planned completion date for this item is September 2008.

Recommendation 3 (b): NHTSA concurred. A new cooperative agreement with
AAMVA will be in place in 2008 and will include a requirement for AAMVA
Help Desk personnel to have appropriate background investigations according to
their level of access to NDR. The planned completion date for this item is June
2008.

Recommendation 3 (c): NHTSA concurred. As part of the required annual
review of security controls, NHTSA will validate the background investigations
                                                                                     18


for all employees with access to NDR. The planned completion date for this item
is October 2007.

Recommendation 4:          NHTSA concurred.        The action required by this
recommendation has been completed as of June 2007. All NDR records are
currently being stored in a secure room in locked cabinets.

Recommendation 5: NHTSA concurred. The NHTSA CIO will coordinate with
the Department’s OCIO to obtain desktop/laptop firewall capabilities to protect the
NHTSA computers used to access the NDR mainframe database. The capabilities
will be tested and approved for operation in the DOT’s Common Operating
Environment. The planned completion date for this item is March 2008.

Recommendation 6(a): NHTSA concurred. NDR will coordinate with the state
DMV’s to re-emphasize the 31-day reporting requirement for revoked and
suspended driver’s licenses. NHTSA will post notices on the AAMVA bulletin
board and advise DMV personnel of the requirement, as part of its continuing
outreach initiative. The planned start date for this item is November 2007.

Recommendation 6(b): NHTSA concurred. As part of the NDR modernization
effort, a field that will store the date that a pointer is first entered into the NDR is
being created. The planned completion date for this item is FY 2009.

Recommendation 7(a): NHTSA concurred. A standard process used by states to
request the manual removal of problem driver records from NDR has been
implemented as of April 2007.

Recommendation 7(b): NHTSA concurred. NHTSA has been requiring the
NDR office to verify a state’s request before the manual removal of a problem
driver record from the system since April 2007.

Recommendation 8(a): NHTSA concurred in part. NHTSA will consult with
state DMVs to determine which physical attributes should be made mandatory for
NDR reporting between November 2007 and the summer of 2008. After that,
NHTSA will determine whether it should revise the reporting requirements for
states’ reporting to NDR. However, NHTSA does not believe that the failure to
include physical attributes should be a basis for refusing a record into the NDR if
other appropriate identifying information is provided.

NHTSA’s proposed corrective action includes a consultation with the states to
determine which physical attributes should be made mandatory for NDR
reporting. However, the response goes on to state that NHTSA does not believe
that the failure to include physical attributes should result in the refusal of a record
                                                                                  19


into NDR. If NHTSA intends to accept records into NDR without physical
attributes, even though required, it should indicate how it intends to follow up with
states to obtain the required information, such as sending a management exception
report listing incomplete submissions for the states to resolve within a specified
time frame. Otherwise, NHTSA’s response suggests that it may establish
reporting physical attributes as a requirement but will not enforce it.

Recommendation 8(b): NHTSA concurred in part. NHTSA states they will
work to identify and share “best practices” for detecting duplicate SSNs contained
in state DMV databases. However, since states will be required to verify SSNs
under the Real ID Act, NHTSA believes that implementing a separate verification
requirement would be unnecessary. The planned completion date for this item is
FY 2008.

While NHTSA’s proposed corrective action for verifying the SSNs of future
license applicants is a step in the right direction, it did not address cleanup of
invalid and duplicate SSNs already in the NDR database. Without this step,
problem drivers already recorded in NDR under an inaccurate SSN could reapply
for a license using the correct SSN and not be detected in NDR. The OIG
provided NHTSA with a copy of duplicate and invalid SSNs that were detected in
NDR. NHTSA should use this data to collaborate with the states and correct these
items in NDR.

 Recommendation 9(a): NHTSA concurred in part. As part of the FY 2008
alternatives analysis required for the NDR modernization capital planning process,
NHTSA will initiate communications with state users to ascertain desired
enhancements that should be included in the modernization process. The planned
completion date for this item is September 2008. NHTSA’s planned corrective
action meets the intent of our recommendation.

Recommendation 9(b): NHTSA concurred. As part of the FY 2008 alternatives
analysis required for the NDR modernization capital planning process, NHTSA
will examine commercially available software products and determine the
usefulness of incorporating them into the NDR name search algorithm. The
planned completion date for this item is June 2008.

Recommendation 10: NHTSA concurred in part. NHTSA will expand the
testing of the recovery system to include a more significant processing load.
However, NHTSA does not believe that the disaster recovery test needs to be at
normal production capacities. The planned completion date for this item is June
2008.
                                                                               20


While increasing the volume of test data is a step in the right direction, NHTSA
did not specify the transaction volume to be used in testing the recovery system.
NHTSA needs to specify the planned transaction volume for testing and share the
results—system response times—with state DMV users. This will help users to
anticipate system performance levels in the event of an actual recovery scenario.

Recommendation 11: NHTSA concurred in part. NHTSA is currently
evaluating the cost and impact of storing a copy of the weekly NDR backup tapes
at a more distant alternate Federal facility. By January 2008, NHTSA will start
implementing necessary changes based on the analysis results. NHTSA’s planned
corrective action meets the intent of our recommendation.


ACTIONS REQUIRED
Except for recommendations 8(a), 8(b), and 10, actions taken and planned by
NHTSA are responsive to our recommendations and are considered resolved
subject to the follow-up requirements in DOT Order 8000.1C. We would
appreciate receiving NHTSA’s revised response to recommendations 8a, 8b, and
10 within 30 days.

We appreciate the courtesies and cooperation of the National Highway Traffic
Safety Administration during this audit. If you have any questions concerning this
report, please contact me at (202) 366-1496 or Nathan Custer, Acting Program
Director, at (202) 366-5540.

                                        #

cc: Chief Information Officer, DOT
    Senior Associate Administrator for Policy and Operations, NPO-010
    Chief Information Officer, FMCSA
    Martin Gertel, M-1
    Antonyio Johnson, NPO-310
                                                                                    21


EXHIBIT A. SCOPE AND METHODOLOGY
This audit was conducted at NHTSA Headquarters in Washington, D.C.; the NDR
contractor’s data processing site in New Jersey; the American Association of Motor
Vehicle Administrators’ (AAMVA) offices in Arlington, Virginia; and the following
selected state motor vehicle administration offices: California, Maryland, Nebraska,
New Hampshire, New York, North Carolina, Oregon, Tennessee, and Virginia.

We reviewed NDR system security by examining policies and procedures, observing
controls in operation, and conducting appropriate tests for security. We also
examined the access security inherent in the NDR system and Federal, state, and
contractor personnel access controls to NDR information, and used a commercial tool
to assess the vulnerability of NHTSA’s network.

We used a data mining tool to test the accuracy, timeliness, and completeness of the
data that NDR processed. We interviewed Federal and state officials to determine the
frequency of state submissions to NDR, the time it takes for NDR to update
information after it is submitted, and the length of time the records are maintained in
NDR. We evaluated whether verification checks were performed on specific data
elements, such as Social Security numbers.

In addition, we reviewed the system’s security certification documents to examine the
business impact analysis and assignment of system risks, to determine whether risks
had been properly assessed, and to verify whether a contingency plan existed and had
been tested.

We did not test security protection of the AAMVAnet or state DMV systems because
they are not NHTSA’s responsibility. Our review of the Social Security numbers
recorded in NDR was limited to checking for obviously incorrect and duplicate
numbers. We did not validate the accuracy of Social Security numbers because all
states except four were performing on-line verification with the Social Security
Administration’s database. We did not test whether driver’s licenses were issued
improperly as a result of the untimely entering of problem-driver data into NDR.

We performed our audit work between March 2005 and December 2006. This
performance audit was conducted in accordance with Generally Accepted
Government Auditing Standards prescribed by the Comptroller General of the United
states and included such tests as we considered necessary to detect fraud, waste, and
abuse.




Exhibit A. Scope and Methodology
                                                                                               22
EXHIBIT B. NDR STATE-BY-STATE DATA BREAKDOWN
                                                                           Records Missing
                       Number of          Records        Duplicate SSN
    State Name                                                                Physical
                        Records        Containing SSN      in-State
                                                                              Attributes
Alabama                      507,002           411,426             2,320             127,570
Alaska                       196,344           181,261               331              22,404
Arizona                    1,295,738           655,285               975             291,449
Arkansas                     265,911           119,584               230              47,706
California                 3,318,564            82,846                64             737,366
Colorado                   1,171,788           548,469             1,237             262,557
Connecticut                  329,904           176,639                67             329,904
Delaware                     105,766            66,257                22              27,203
District of Columbia          74,742            59,819                44              32,549
Florida                    1,929,266         1,625,678            11,214           1,929,265
Georgia                    1,237,210           811,219             3,133             152,816
Hawaii                        92,881            85,336                 0              21,989
Idaho                        233,184           189,514                 3              49,373
Illinois                   2,148,671                 0               N/A             878,089
Indiana                      783,144           574,958             2,489             117,104
Iowa                         453,307           379,478                 5              75,761
Kansas                       391,154           267,908               933              52,423
Kentucky                     349,067           328,176                93              54,149
Louisiana                    443,462           375,385            14,108               9,028
Maine                        356,948           137,851             1,144             147,301
Maryland                     894,861           631,638             2,511             894,861
Massachusetts              1,466,277         1,101,289             7,888           1,466,277
Michigan                   1,250,512           305,332             4,249              80,999
Minnesota                    357,859           255,046             1,007              50,433
Mississippi                  278,736            38,137                42              29,369
Missouri                     741,579           671,308                16              65,649
Montana                      136,991           117,618                50              10,764
Nebraska                     397,253           323,703               202              64,269
Nevada                       444,748           422,603               907              45,267
New Hampshire                256,102           152,537               258             103,073
New Jersey                 2,277,988         1,772,504            18,890             185,339
New Mexico                   281,564           274,817               193             114,337
New York                   1,515,930           706,119             2,629           1,515,930
North Carolina             2,613,467         1,954,815             7,428           2,613,463
North Dakota                  62,615               947                 0              11,535
Ohio                       1,951,414         1,856,350                 0             168,148
Oklahoma                     661,725           391,881               276             130,375
Oregon                     1,211,533           204,901               218           1,211,533
Pennsylvania               1,641,242         1,157,012             3,046           1,641,242
Rhode Island                 373,146           180,592            12,757             275,151
South Carolina               769,946           545,186            14,975             769,946
South Dakota                 105,643            83,415               107              20,186
Tennessee                  1,498,246         1,286,326             3,302             254,447
Texas                      1,604,701         1,364,964            21,184             105,009
Utah                         460,592           405,867             1,052              67,477
Vermont                      183,312           117,650               982              98,318
Virginia                   1,303,600         1,258,352             9,777              71,581
Washington                   845,874           651,094             1,604             113,095
West Virginia                275,658           264,614               230              20,045
Wisconsin                    890,268           698,513             7,134             129,761
Wyoming                       83,919            75,490                53              20,961
Totals                    42,521,354        26,347,709           161,379          17,714,846

N/A - Not Applicable




Exhibit B. NDR State-by-State Data Breakdown
                                                                 23


EXHIBIT C. MAJOR CONTRIBUTORS TO THIS REPORT

NAME                                    TITLE
Ed Densmore                             Program Director
Nathan Custer                           Project Manager
Dr. Ping Z. Sun                         Project Manager
Michael P. Fruitman                     Communications Adviser
Jim Mallow                              Senior Auditor
Henry Lee                               Computer Scientist
Mitchell Balakit                        Information Technology
                                        Specialist
Christopher Cullerot                    Information Technology
                                        Specialist
Vasily Gerasimov                        Information Technology
                                        Specialist
Martha Morrobel                         Information Technology
                                        Specialist
Harriet E. Lambert                      Writer-Editor




Exhibit C. Major Contributors to This Report
                                                                                            24


APPENDIX. MANAGEMENT COMMENTS



                                         Memorandum
U.S. Department
of Transportation
National Highway
Traffic Safety
Administration



Subject:     Corrective Action to Draft Report                Date:     October 10, 2007
             on Audit of Security and Controls
             Over the National Driver Register

From:        Nicole R. Nason                               Reply to     Rebecca Lang
             Administrator                                 Attn. of:    Office of the Inspector
             X6-1836                                                    General
                                                                        X6-1488
To:          Kurt Hyde
             Assistant Inspector General for
             Surface and Maritime Programs


Attached are the National Highway Traffic Safety Administration (NHTSA) proposed responses
and corrective actions to address the eleven recommendations in the Office of the Inspector
General's recent Audit of the NHTSA's Security and Controls Over the National Driver Register
Program, forwarded to us on September 7.

If you have any questions on this response, please contact Antonyio Johnson, our OIG Liaison at
X6- 1480.

Attachment




Appendix. Management Comments
                                                                                                25

            NATIONAL HIGHWAY TRAFFIC SAFETY ADMINISTRATION
                     RESPONSE TO OIG DRAFT REPORT

TITLE: Audit of Security and Controls over the National Driver Register. PROJECT
NUMBER: 05F3019F000.

     NATIONAL HIGHWAY TRAFFIC SAFETY ADMINISTRATION POSITION

NHTSA thanks the Office of Inspector General for this report, and its willingness to work with
the agency to describe most accurately the conditions surrounding the National Driver Register
program. The agency’s response indicates any areas where there are concerns with
implementing the recommendations found in the report.


Recommendation 1: Enhance security protection of NDR data by establishing an
interconnection security agreement and memorandum of understanding with AAMVA to
document security requirements, identify authorities, and specify responsibilities of both
organizations, such as the encryption of the data and the security assurance required to meet
Government minimum security standards.

Response: Concur.

Corrective Action: NHTSA already has developed a draft interconnection security agreement
and memorandum of understanding that is going through internal agency review. Once that
review is completed, NHTSA will work with AAMVA to finalize and sign the recommended
documents. Planned completion date: December 2007.


Recommendation 2: Enhance security protection of NDR data by installing encryption on the
dedicated line between NHTSA and the NDR contractor site.

Response: Concur.

Corrective Action: NDR and NHTSA CIO will work with DOT CIO to establish encryption on
the line between NHTSA and the timeshare vendor site. Planned completion date: June 2008.


Recommendation 3 (a): Enhance security protection of NDR data by requiring NDR officials to
reevaluate the position risk and associated background check requirement for the two NHTSA
employees with the ability to change NDR software.

Response: Concur.

Corrective Action: NHTSA will upgrade the position of risk designation of the employees and
conduct appropriate background investigations. While the investigations are underway the
employees will continue to function in their current duties. Reclassification of position planned
completion date: September 2008.


Appendix. Management Comments
                                                                                               26

Recommendation 3 (b): Modify the cooperative agreement to require AAMVA personnel
providing Help Desk services to have the appropriate type of background check.

Response: Concur.

Corrective Action: A new cooperative agreement with AAMVA will be in place in 2008 and
will include a requirement for AAMVA Help Desk personnel to have an appropriate background
investigation according to their level of access to the PDPS. Planned completion date: June
2008.

Recommendation 3 (c): Ensure that NDR mainframe data center employees’ background
checks are sufficient to meet DOT policy requirements, as specified in the contract.

Response: Concur.

Corrective Action: As part of the annual review of security controls required by NIST 800-53,
NHTSA will validate the background investigations for all employees with access to the PDPS.
Planned completion date: October 2007.


Recommendation 4: Require that facilities used to store NDR records are properly secured at
all times

Response: Concur.

Corrective Action: The action required by this recommendation was completed in June 2007.
All NDR records are now stored in a secure room in locked cabinets.


Recommendation 5: Better protecting the NHTSA computers used to access NDR mainframe
database, such as installing firewall security to separate these mission critical computers from
other computers on the network.

Response: Concur.

Corrective Action: NHTSA OCIO will coordinate with DOT CIO to obtain desktop/laptop
firewall capabilities tested and approved for operation in the Common Operating Environment.
Planned completion date: March 2008.


Recommendation 6(a): Working with the states to establish a mechanism to ensure that DMVs
enter problem driver data into NDR within 31 days of receipt of conviction as required by Title
49

Response: Concur.

Corrective Action: NDR will initiate an information outreach campaign with the state DMV’s
to re-emphasize the need to comply with the 31-day reporting requirement for revoked and

Appendix. Management Comments
                                                                                                    27
suspended driver’s licenses. NHTSA will post notices on the AAMVA bulletin board and
advise motor vehicle personnel of the requirement. Initial action date: Continuing outreach
initiatives to commence with November 2007.


Recommendation 6(b): Working with the states to modify the NDR database to ensure that the
original date that the record of a problem driver was entered into the system is retained.

Response: Concur.

Corrective Action: As part of the development of the new PDPS system, NDR is creating a
field that will store the date a pointer is first entered into the PDPS. Planned completion date:
FY 2009.


Recommendation 7(a): Requiring NDR officials to develop a standard process for states to use
when requesting the manual removal of problem driver records from the NDR, including the
driver’s legal name, reason for the deletion, and name of the authorized state representative
making the request.

Response: Concur.

Corrective Action: The action required by this recommendation was completed in April 2007.


Recommendation 7(b): require the NDR office to verify the state’s request before removal of
the problem driver record.

Response: Concur.

Corrective Action: The action required by this recommendation was completed in April 2007.


Recommendation 8(a): Requiring NDR officials to work with state DMV officials to determine
which physical attributes should be made mandatory for NDR reporting, provide the guidelines
to the states in a directive, and establish edit checks in the NDR to verify that required data fields
are complete before accepting a record into the system.

Response: Concur-in-part.

Corrective Action: The NDR will consult with state driver licensing agencies to determine
which physical attributes should be made mandatory for NDR reporting. After this consultation,
the Agency will review its regulation to determine whether it is necessary to revise the current
reporting requirements. However, the Agency does not believe that the failure to include
physical attributes should be a basis for refusing a record into the NDR if other appropriate
identifying information is provided because it may result in that record not being included in the
NDR database. This in turn, may result in a revoked or suspended driver being able to obtain a
driver’s license in another jurisdiction. It is important to note that the Agency has limited
practical ability to enforce these requirements on the states. We prefer to rely on education and

Appendix. Management Comments
                                                                                               28
cooperation with the states to help ensure an effective NDR program. Planned completion
date: Initial discussions to be held with the Motor Vehicle Administrators in November 2007
and again during the summer of 2008. Any necessary revisions to the regulation will follow
these discussions.


Recommendation 8(b): require that state DMV’s correct the invalid and duplicate Social
Security numbers stored in NDR –a Federal system– and to use the online verification of Social
Security numbers.

Response: Concur-in-part.

Corrective Action: NHTSA agrees that states should work to remove the duplicate SSN’s
from their licensing databases. The NDR will work with the two states that showed no duplicate
Social Security Numbers to identify “best practices” for methods to detect duplicate SSN’s
contained on their databases. NHSTA will initiate an outreach program with the states to share
these best practices. However, forty-eight states and the District of Columbia have the capability
to verify the validity of SSN’s with the Social Security On-Line Verification (SSOLV) system.
To initiate a separate action for this recommendation for the use of SSOLV by NHTSA would
be duplicative. Planned completion date: Initiate contact with two states with zero duplicate
SSN’s in November 2007 to document best practices. These best practices will be distributed to
the states in the summer of 2008 during the AAMVA regional conferences.


Recommendation 9(a): Requiring NDR officials to work with the state DMV’s to determine
what functional upgrades should be included in the NDR modernization plan.

Response: Concur-in-part.

Corrective Action: As part of the FY 2008 alternatives analysis required as part of the capital
planning process, the NDR will initiate communications with state users to ascertain desired
enhancements and to determine whether these should result in additional system changes.
Planned completion date: September 2008.


Recommendation 9(b): Evaluate whether any commercially available search engine will work
more effectively with the relational database design and improve the accuracy and response time
of the driver applicant searches.

Response: Concur.

Corrective Action: As part of the FY 2008 alternatives analysis required as part of the capital
planning process, the NDR will examine commercially available software products to determine
the usefulness of incorporating them into a future enhancement of the PDPS Name-Match
database search algorithm. Planned completion date: June 2008.


Recommendation 10: Coordinating with state DMVs to test the transaction processing capacity
of the recovery system at the contractor’s alternate data center.

Appendix. Management Comments
                                                                                                    29

Response: Concur-in-part.

Corrective Action: NHTSA will expand the recovery testing to ensure functionality with a
more significant load, which should provide a closer approximation of complete system
performance in times where a national emergency would require use of the recovery system.
NHTSA does not believe that the disaster recovery test needs to have the backup site function at
normal production capacities. Further, NIST 800-34 does not require full hot-site redundancy for
systems, such as PDPS, that are not national security systems. It is neither practical nor cost
effective for a state to switch their entire processing capabilities for a test of this nature. Planned
completion date for expanding the recovery testing: June 2008.


Recommendation 11: Requiring a copy of the weekly backup data files from the NDR data
center be stored in a more remote site than the one currently used.

Response: Concur-in-part.

Corrective Action: NHTSA is currently evaluating the cost and impact of storing a copy of the
weekly NDR backup tapes at an alternate Federal facility. Planned completion date: Analysis by
January 2008; implementing any necessary changes according to a schedule to be agreed upon
with the DOT CIO following the completion of the analysis.




Appendix. Management Comments
                                                                               30


The following pages contain textual versions of the graphs and charts found in this
document. These pages were not in the original document but have been added
here to accommodate assistive technology.
                                                                              31


           Security and Controls Over the National Driver Register

                     Section 508 Compliance Presentation


Figure 1. Overview of NDR System Connections

This diagram shows that the NDR is housed at a contractor site and how it
interfaces with NHTSA at the DOT headquarters and with the States through the
AAMVA network.

NHTSA is connected directly to the NDR via a dedicated line. NHTSA is also
connected to the Department of Transportation’s internal network, on which other
DOT operating administrations also reside. Examples of these other operating
administrations include the Federal Aviation Administration and the Federal Rail
Administration. Every operating administration within DOT is connected to the
internet via the Department’s internal network.

On the State side, the NDR is directly connected to the AAMVA network. Each
of the State DMVs are also connected to the AAMVA network and are able to
interface with the NDR via this network. The AAMVA headquarters also is able
to interface with the NDR via the AAMVA network. State DMVs and the
AAMVA are connected to the internet.
